APPENDIX

1a
APPENDIX A
_________
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
_________
DAVID SAMARRIPA (17-6048/6260); STEPHON MASON
(17-6166); JOSE ADRIAN HERNANDEZ (17-6213);
ARNULFO TORRES PEREZ (17-6299); TIMMIE D. COLE,
SR. (17-6333),
Petitioners-Appellants,
v.
J. RAY ORMOND, Warden,
Respondent-Appellee.
_________
Nos. 17-6048/6166/6213/6260/6299/6333
_________
Appeal from the United States District Court
for the Eastern District of Kentucky at London
_________
No. 6:17-cv-00086—Danny C. Reeves, District Judge;
Nos. 6:17-cv-00072 & 6:17-cv-00082—Karen K.
Caldwell, Chief District Judge;
No. 6:17-cv-00081—David L. Bunning,
District Judge;
No. 6:17-cv-00150—Gregory F. Van Tatenhove,
District Judge.
_________
Argued: January 30, 2019
_________

2a
Decided and Filed: March 4, 2019
_________
Before: SUTTON, GRIFFIN, and LARSEN, Circuit
Judges
_________
COUNSEL
ARGUED: Katherine B. Wellington, HOGAN
LOVELLS US LLP, Washington, D.C., for
Appellants. Edward Himmelfarb, UNITED STATES
DEPARTMENT OF JUSTICE, Washington, D.C., for
Appellee. James R. Saywell, JONES DAY, Cleveland,
Ohio, as Amicus Curiae. ON BRIEF: Katherine B.
Wellington,
HOGAN
LOVELLS
US
LLP,
Washington,
D.C.,
for
Appellants.
Edward
Himmelfarb, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Appellee. James R.
Saywell, JONES DAY, Cleveland, Ohio, as Amicus
Curiae.
_________
OPINION
_________
SUTTON, Circuit Judge. Indigent individuals may
seek permission in the district court to appeal
adverse judgments without prepayment of appellate
filing fees. At issue in today’s five consolidated cases,
each filed under 28 U.S.C. § 2241, is whether district
courts may grant such motions in part by requiring
litigants to prepay some, but not all, of the $505
appellate court filing fee. The law at issue says that
a federal court “may authorize the commencement,
prosecution or defense of any suit, action or
proceeding, civil or criminal, or appeal therein,

3a
without prepayment of fees” by a person who “is
unable to pay such fees.” 28 U.S.C. § 1915(a)(1).
Nothing about this language deprives a district court
of discretion to require partial prepayment of
appellate filing fees, and nothing about it alters the
pre-1996-amendment practice of doing just that. For
these reasons and those elaborated below, we agree
with the district courts’ partial fee rulings.
I.
David
Samarripa,
Stephon
Mason,
Jose
Hernandez, Arnulfo Perez, and Timmie Cole—
federal prisoners all—filed petitions for a writ of
habeas corpus under 28 U.S.C. § 2241, arguing that
their respective sentences are too long under federal
law. All five men paid the $5 habeas filing fee in the
district court. Id. § 1914(a). And each of them lost his
petition on the merits. Each man filed a timely notice
of appeal and a motion to proceed as a pauper on
appeal, seeking to avoid prepaying the $505
appellate filing fee. Id. §§ 1913, 1917. After
examining each petitioner’s financial status, the
district courts granted the motions in part under §
1915(a)(1), requiring each petitioner to make a onetime, partial prepayment of the fee: $50 for
Samarripa and Cole, $350 for Hernandez, and $400
for Mason and Perez.
Each of them renewed his motion in this court, in
effect challenging the district courts’ determinations.
See Fed. R. App. P. 24(a)(5) and advisory committee’s
note. We consolidated the five motions to consider
whether federal courts have the statutory authority
to require petitioners to prepay a partial filing fee on
appeal of a § 2241 petition. We appointed Katherine
Wellington to represent the claimants pro bono.

4a
Before this court, the claimants and the
government agreed that the district courts had no
such authority. We appointed James Saywell as
amicus curiae to file a brief in defense of the district
courts’ orders. Both Ms. Wellington and Mr. Saywell
ably handled their appointments, for which we are
grateful.
II.
At stake is whether the law permits partial
prepayment of fees or requires an all-or-nothing-atall approach. The text of § 1915(a)(1) says: “[A]ny
court of the United States may authorize the
commencement, prosecution or defense of any suit,
action or proceeding, civil or criminal, or appeal
therein, without prepayment of fees or security
therefor, by a person,” based on the court’s review of
the person’s assets and claim. (Emphasis added). The
key language—“may authorize” and “without
prepayment of fees”—does not answer the question.
A court that excuses all fees or some fees still allows
a filing “without prepayment of fees.” Ample room for
clarification exists in either direction. Had the law
said that courts “shall authorize” litigants to proceed
“without prepayment of any fees,” that would clarify
that courts face a $505 or a $0 option with nothing in
between. Had the law said that courts “may” allow
litigants to proceed “without prepayment of some or
all fees,” that would clarify that courts could permit
partial prepayments depending on the person’s
particular financial situation. Absent more textual
guidance from these words alone, we must keep
looking.
Pulling back the lens offers some guidance. The
clause immediately following the key language

5a
(“without prepayment of fees or security therefor”)
implies that courts may require litigants to post
something as security for the filing fees in an
appropriate case. Security for costs falls within a
court’s broad discretion. See United States v. Ames,
99 U.S. 35, 36 (1878); Aggarwal v. Ponce Sch. of
Med., 745 F.2d 723, 726–27 (1st Cir. 1984). It would
be strange, we think, to pair a non-discretionary item
with an eminently discretionary one. The pairing
suggests that the same kind of discretion that
accompanies
“security”
decisions
applies
to
“prepayment of fees” decisions.
As for the other relevant provision, Appellate Rule
24, it does not answer the question either way. In
setting out a procedure for seeking pauper status on
appeal, it tells the party to file the motion in the
district court. If the court grants the motion, the
party may proceed as a pauper on appeal without
prepayment. Fed. R. App. P. 24(a)(2). If the district
court denies the motion, the party may file the
motion in the court of appeals, in effect challenging
the district court’s decision. Id. 24(a)(5). The Rule
contemplates granting or denying these motions. Id.
24(a)(2). But it does not rule in or rule out discretion
in between.
History helps. By the time Congress amended the
pauper statute in 1996, every circuit to address the
issue had held that § 1915(a)—in place since 1892—
allowed courts to require parties to prepay part of
the filing fees. In re Epps, 888 F.2d 964, 967 (2d Cir.
1989); Bullock v. Suomela, 710 F.2d 102, 103 (3d Cir.
1983); Evans v. Croom, 650 F.2d 521, 524–25 (4th
Cir. 1981); Williams v. Estelle, 681 F.2d 946, 947 (5th
Cir. 1982) (per curiam); McMurray v. McWherter, 19

6a
F.3d 1433 (6th Cir. 1994) (unpublished table
decision); Lumbert v. Ill. Dep’t of Corr., 827 F.2d 257,
259–60 (7th Cir. 1987); In re Williamson, 786 F.2d
1336, 1338 (8th Cir. 1986); Olivares v. Marshall, 59
F.3d 109, 111 (9th Cir. 1995); Stack v. Stewart, 82
F.3d 426 (10th Cir. 1996) (unpublished table
decision); Collier v. Tatum, 722 F.2d 653, 655 (11th
Cir. 1983). Noting the breadth of discretion in the
statute’s terms, the courts construed the broad power
to waive any prepayment of all fees to encompass the
lesser power to waive prepayment of some fees. See,
e.g., In re Epps, 888 F.2d at 967; Olivares, 59 F.3d at
111.
When Congress amended the statute in 1996, it did
not meaningfully change the text of § 1915(a)(1).
That reality permits the inference that Congress did
not wish to change what had become a uniform
practice of permitting courts to require indigent
litigants to prepay some but not all of the fee.
Context offers another clue, and it too arose from
the 1996 amendments. Just as important as what
Congress did not do in 1996 is something it did do: It
enacted the Prison Litigation Reform Act. In the
PLRA, Congress took away judicial discretion when
prisoners bring civil suits or file appeals. In those
cases, “the prisoner shall be required to pay the full
amount of a filing fee.” 28 U.S.C. § 1915(b)(1). The
court must assess an initial fee calculated as 20% of
either the average monthly deposits to the prisoner’s
account or the average balance in the account over
the previous six months. Id. § 1915(b)(1)(A), (B).
Prisoners then make precise monthly payments until
they pay the fee in full. Id. § 1915(b)(2). Congress’s
limit of discretion in this one area, while leaving

7a
§ 1915(a)(1) substantially the same, suggests no
alteration to the court’s discretion to require partial
prepayment in other cases under § 1915(a)(1). And
Congress’s decision to clamp down on judicial
discretion in one area of prisoner litigation while
leaving untouched plenty of discretion in another
area suggests an intentional choice. Different
language about a similar topic suggests a difference
in meaning. Gross v. FBL Fin. Servs., Inc., 557 U.S.
167, 174–75 (2009).
What happens with costs at the end of a case
provides another contextual clue about what should
happen with filing fees at the beginning of a case.
Section 1915(f)(1) provides that “[j]udgment may be
rendered for costs at the conclusion of the suit or
action as in other proceedings.” The general costs
statute, 28 U.S.C. § 1920, says that a court “may tax”
certain items “as costs.” Courts consider several
equitable factors to guide their discretion in
determining the propriety and amount of that
assessment. See Singleton v. Smith, 241 F.3d 534,
539–40 (6th Cir. 2001). That means courts have
discretion to assess costs, including filing fees,
against losing litigants after the case even if those
litigants proceed as paupers. Id. at 539–41. No court
to our knowledge has interpreted this statute to limit
district court discretion to an all-costs-or-no-costs-atall inquiry. If Congress gives courts broad discretion
over fees on the back end of a pauper’s case (and over
cost assessments in general), it’s fair to infer that it
wishes equally permissive language on the front end
of a pauper’s case to be read in a like way. When
asked “who decides” fee requirements for paupers
within the statutory range, Congress answered

8a
“courts” and gave them ample discretion to see it
through from the beginning to the end of the case.
When faced with this issue, the Seventh Circuit in
an opinion by Judge Easterbrook took the same
approach, holding that courts may require partial
prepayment under § 1915(a)(1). See Longbehn v.
United States, 169 F.3d 1082 (7th Cir. 1999).
Appreciating that courts often required partial
prepayment before Congress amended the statute in
1996, the Seventh Circuit concluded there was no
reason why courts couldn’t require partial
prepayment after the PLRA in cases not covered by
the PLRA. Id. at 1083. Baked into the courts’
discretion in this area, it reasoned, is the idea that
“every litigant has a legal responsibility to pay the
filing and docketing fees to the extent feasible,”
whether that happens before or after the case. Id.
The court approved the district court’s discretionary
decision to borrow the PLRA’s 20% formula for
determining the requisite prepayment in that habeas
appeal. Id. at 1083–84.
The claimants and the United States oppose this
conclusion on several grounds. First, they argue that
the text of § 1915(a)(1) supports their approach. Yes,
it’s true, the text is silent about allowing partial
prepayment of fees. But it is just as silent in the
other direction. Saying that a court “may authorize”
a filing “without prepayment of fees” does not say
one way or the other whether all fees may be
forgiven or just some. A court order that the litigant
pay 20% of the fees still amounts to an order
authorizing the filing “without prepayment of fees.”
Garza v. Thaler, 585 F.3d 888 (5th Cir. 2009) (per
curiam), we acknowledge, took a different approach.

9a
But it’s not convincing, and it did not consider many
of these arguments. The district court granted
Garza’s motion to proceed as a pauper on his habeas
appeal but, in its discretion, required him to pay the
full filing fee according to the PLRA’s statutory
formula. The Fifth Circuit reversed, reasoning that
the court had no authority to “grant” Garza’s motion
and still require him to pay in accordance with the
terms of the PLRA. Id. at 890. Garza viewed the
district court’s choice under § 1915(a)(1) as binary:
Either grant pauper status and require no
prepayment, or deny pauper status and require full
prepayment. But, as shown, Congress contemplated
giving courts discretion when it comes to requiring
litigants to pay some or all of the filing fees, before
the suit and after it ends. See § 1915(a)(1), (f)(1).
Garza also failed to consider the breadth of
discretion in § 1915(a)(1)’s text, the history of courts
interpreting it to allow partial prepayment, and the
statutory context. Each point undercuts Garza’s
holding.
Our case for what it is worth differs from Adkins v.
E.I. DuPont de Nemours & Co., 335 U.S. 331 (1948).
It held that courts could not require a party’s
attorneys to establish their inability to pay fees
before deciding whether to grant the party pauper
status. Id. at 340–44. Section 1915(a) did not allow
for such “surprising legislative innovation” by the
court. Id. at 341. It required instead that the litigant
herself establish an inability to pay the fee. Unlike
the court’s innovations in that case, today’s
conclusion—that courts may require partial
prepayments—attends to the text, context, and
history of the relevant provisions.

10a
The claimants also argue that Rule 24 limits
courts’ discretion to take-it-or-leave-it grants or
denials. That Rule’s procedures (filing a motion in
the court of appeals as a way to challenge the district
court’s decision) would not make sense, they say, if
courts could require partial prepayment. But nothing
in the Rule prevents district courts or courts of
appeals from granting in part and denying in part a
party’s motion, thereby requiring or allowing partial
prepayment.
The claimants and the government argue that the
PLRA in 1996 abrogated any authority for courts to
require partial prepayment under § 1915(a)(1). At
that point, they note, Congress provided a highly
reticulated system for requiring payment from
prisoners in civil cases, which includes partial
prepayment. Because § 1915(a)(1) includes no such
language, they claim that Congress made a
structural decision not to allow partial prepayment
for cases not covered by the PLRA. But that
observation turns into the wind rather than with it.
Both the claimants and the government think the
PLRA does not apply here. So when Congress clearly
took away judicial discretion over the subset of cases
covered by the PLRA, it left unscathed the broad
discretionary language that still applies to other
cases.
They next point to language in the Criminal
Justice Act, which allows courts to make a person
who receives appointed counsel under that Act liable
for
“partial
payment
for
[court-appointed]
representation” if he “is financially able.” 18 U.S.C.
§ 3006A(c). No doubt, Congress could have used that
language—“partial payment”—to clarify the pauper

11a
statute, but we don’t think the difference between
that language and this language makes the dent the
parties think it does. Far more persuasive, we think,
to focus on similarities in language between direct
relatives (28 U.S.C. § 1915(a)(1) and 28 U.S.C.
§ 1915(f)(1)) than differences in language between
kissing cousins (28 U.S.C. § 1915(a)(1) and 18 U.S.C.
§ 3006A(c)).
Last of all, they argue that an all-in-or-all-out
system would be more administrable by giving courts
fewer options than a partial prepayment alternative.
But see, e.g., In re Epps, 888 F.2d at 967; Olivares, 59
F.3d at 111. One could fairly argue the point either
way. But it doesn’t change the language, history, and
context of the provision. Congress gave courts wide
latitude in determining when and how much to
require litigants to pay before and after their cases.
That’s the hard part. Resolution of the merits of
each motion is relatively easy. After examining each
claimant’s financial status, the district courts
determined the appropriate partial prepayment.
Before us, the claimants must provide “the district
court’s statement of reasons for its action” with their
motions. Fed. R. App. P. 24(a)(5). We give some
deference to the district court’s determinations about
each claimant’s ability to pay. See Flippin v. Coburn,
107 F. App’x 520, 521 (6th Cir. 2004). None of the
claimants has identified any error in the district
courts’ decisions, and we see no warrant for
questioning them either. We thus will require
prepayment of the same amounts of the appellate
filing fees as each district court required: $50 for
Samarripa and Cole, $350 for Hernandez, and $400
for Mason and Perez.

12a
III.
The district courts resolved this filing-fee question
under § 1915(a)(1) rather than one of the
amendments in the PLRA, now codified at § 1915(b)
and (g). In their briefs before us, the claimants and
the United States agree that the PLRA does not
apply to habeas petitions filed under § 2241, and all
five district courts in these cases said or assumed
that the PLRA does not apply. That turns out to be a
more complicated question than first meets the eye,
and the amicus curiae has offered a thoughtful
argument, one to our knowledge not made within our
circuit before, that the PLRA covers this filing-fee
question. While we need not resolve the point today,
it is worth setting forth the argument, as it may be
useful to future litigants or courts.
The PLRA’s mandatory fee-payment scheme
applies “if a prisoner brings a civil action or files an
appeal in forma pauperis.” § 1915(b)(1). As the
amicus curiae sees it, the text and context of this
language establish that the PLRA applies to all
appeals of habeas petitions, whether filed under
§ 2241 or for that matter 28 U.S.C. §§ 2254 or 2255.
As for the text, the provision applies when a prisoner
“files an appeal in forma pauperis.” § 1915(b)(1).
There appears to be no modifier limiting this
language to a subset of pauper appeals. It seems to
cover each and every one. See Walker v. O’Brien, 216
F.3d 626, 641 (7th Cir. 2000) (Easterbrook, J.,
dissenting from the denial of rehearing en banc).
Context, too, offers support for this reading. In
several places throughout § 1915, Congress used
more specific language to refer to subsets of appeals.
Two subsections, § 1915(a)(2) and (g), apply only

13a
when a prisoner “bring[s] a civil action or appeal[s] a
judgment in a civil action.” Section 1915(b)(3) applies
to “a civil action or an appeal of a civil action or
criminal judgment,” and § 1915(b)(4) covers
“bringing a civil action or appealing a civil or
criminal judgment.” Congress’s use of modifiers to
limit the kinds of appeals to which these subsections
apply may suggest that it meant § 1915(b)(1) to cover
all appeals.
We recognize that each circuit to address the issue
has said that the PLRA does not apply to habeas
appeals. See Reyes v. Keane, 90 F.3d 676, 678 (2d Cir.
1996); Santana v. United States, 98 F.3d 752, 756 (3d
Cir. 1996); Pfeffer v. McBride, 241 F. App’x 910, 910
(4th Cir. 2007) (per curiam); United States v. Cole,
101 F.3d 1076, 1077–78 (5th Cir. 1996); Kincade v.
Sparkman, 117 F.3d 949, 951 (6th Cir. 1997); Martin
v. United States, 96 F.3d 853, 854–55 (7th Cir. 1996);
Malave v. Hedrick, 271 F.3d 1139, 1139–40 (8th Cir.
2001) (per curiam); Naddi v. Hill, 106 F.3d 275, 277
(9th Cir. 1997); United States v. Simmonds, 111 F.3d
737, 744 (10th Cir. 1997); Anderson v. Singletary,
111 F.3d 801, 805 (11th Cir. 1997); Blair-Bey v.
Quick, 151 F.3d 1036, 1040 n.2 (D.C. Cir. 1998).
But many of those courts, including ours, do not
account for the “or files an appeal” language in
§ 1915(b)(1). See, e.g., Kincade, 117 F.3d at 950–51.
And those that attend to this language suggest that
“civil” must modify both “action” and “appeal,” such
that the PLRA applies only to civil appeals. See, e.g.,
Reyes, 90 F.3d at 678; Martin, 96 F.3d at 854–55. But
that is not self-evident. The adjective “civil”
assuredly would modify both “action” and “appeal” if
the statute said “brings a civil action or appeal.”

14a
That would make it similar to the prohibition of
“unreasonable searches and seizures,” U.S. Const.
amend. IV, or to the Alabama Supreme Court’s
ruling that “intoxicating bitters or beverages” means
intoxicating bitters and intoxicating beverages, Ex
parte State ex rel. Att’y Gen., 93 So. 382, 383 (Ala.
1922). See Antonin Scalia & Bryan A. Garner,
Reading Law 147–48 (2012). But this language
differs: “brings a civil action or files an appeal.”
§ 1915(b)(1). The repeated determiner (“an”) after the
disjunctive conjunction (“or”) and a different verb
(“files”) may suggest that civil does not modify
appeal. Scalia & Garner, Reading Law 148–49. That
Congress used different language to specify subsets
of appeals in other provisions of § 1915 also raises
questions about the prevailing approach.
Some of these prior decisions rely on context as
support for this interpretation. See, e.g., Simmonds,
111 F.3d at 744. If the PLRA applies, they note,
courts determine the appropriate initial and monthly
filing fees based on the balance of the prisoner’s trust
fund account. § 1915(b)(1), (2). But § 1915(a)(2)
requires prisoners to provide the court a copy of their
trust fund account statements only when filing a
civil action or a civil appeal. It doesn’t make sense,
this argument continues, to require only civilprisoner appellants to file account statements when
courts will need to know information about the
accounts for all prisoners’ pauper appeals. See
Simmonds, 111 F.3d at 744. All true and all helpful
to that position. But does the point suffice to counter
the text, especially since § 1915(a)(2) refers to civil
appeals by name and § 1915(b)(1) does not?

15a
Also driving the prevailing approach seems to be a
concern about the impact of the PLRA’s three-strikes
rule on habeas petitions. The PLRA prevents a
prisoner from bringing a civil action or a civil appeal
as a pauper if he has, while imprisoned, previously
brought three actions or appeals that courts
dismissed as “frivolous, malicious, or [for] fail[ure] to
state a claim.” 28 U.S.C. § 1915(g). Many of these
courts find it hard to believe that Congress would
limit the availability of habeas relief for inmates who
had filed three frivolous § 1983 actions, especially
since Congress enacted AEDPA (which places limits
on habeas review) at the same time. See, e.g.,
Kincade, 117 F.3d at 950–51; Martin, 96 F.3d at
854–56. We share those concerns. But they may not
apply here: The three-strikes provision applies only
to civil appeals, while § 1915(b)(1) appears to apply
to all appeals. That means the three-strikes
provision would present a problem for habeas
claimants only if a habeas petition is invariably a
“civil” claim. That may or may not be true. Although
we characterize habeas actions as non-criminal
proceedings and thus as civil proceedings in one
sense, Fisher v. Baker, 203 U.S. 174, 181 (1906), that
“label” can be “gross and inexact” in some settings,
Harris v. Nelson, 394 U.S. 286, 293–94 (1969).
Habeas “is unique.” Id. at 294. Especially when a
habeas petition is used to collaterally attack a
criminal judgment, as in this case, habeas may not
fit neatly into the civil or criminal camp. See Martin,
96 F.3d at 855.
Reading “appeal” to mean all appeals also raises a
concern about the possibility that indigent criminal
defendants may not be able to pay the PLRA’s fees.

16a
But two statutory provisions seem to go a long way
in alleviating that fear. The PLRA itself says that a
prisoner won’t be “prohibited from bringing a civil
action or appealing a civil or criminal judgment for
the reason that the prisoner has no assets and no
means by which to pay the initial partial filing fee.”
§ 1915(b)(4). On top of that, the Criminal Justice Act
carves out an exception to the PLRA for people who
are appointed counsel under the Criminal Justice
Act: They “may” appeal “without prepayment of fees
and costs or security therefor.” 18 U.S.C.
§ 3006A(d)(7). So it is, generally speaking, that
criminal defendants who can’t afford to pay for
counsel or to pay the fee won’t have to.
In Kincade, it is true, our court held that the PLRA
does “not apply to cases or appeals brought under”
§§ 2254 and 2255. 117 F.3d at 951. But the decision
did not address most of the above arguments because
they were not presented to the court.
On top of that, Kincade does not clearly tie
anyone’s hands when it comes to § 2241 appeals. See
Walker, 216 F.3d at 641–42 (Easterbrook, J.,
dissenting from the denial of rehearing en banc)
(proposing a different prepayment rule for at least
some § 2241 petitions on the one hand and §§ 2254
and 2255 petitions on the other). Even so, it’s worth
pausing over whether that dichotomy is worth the
candle. Channeling fee waiver requests for §§ 2254
and 2255 petitions into one regime and fee waiver
requests for § 2241 petitions into another not only
would complicate matters for clerks’ offices, but it
wouldn’t help much if the applicant simultaneously
sought relief under § 2241 and one of the traditional
collateral-relief provisions. No less importantly,

17a
complications would arise when it was not clear what
the proper label for the claim was.
All of this must await another day and another
case, one in which the parties squarely present the
arguments below. For now, we accept and agree with
each district court’s approach to the case.
For these reasons, we deny the requests of the
petitioners to lower their filing fees and thus require
them to pay the respective fees ordered by each
district court within 28 days of this decision.

18a
APPENDIX B
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
(at London)
_________
DAVID SAMARRIPA,
Petitioner,
v.
J. RAY ORMOND, Warden,
Respondent.
_________
Civil Action No. 6:17-86-DCR
_________
Filed: October 11, 2017
_________
ORDER
_________
Petitioner David Samarripa has filed a Notice of
Appeal [Record No. 19] and a motion to waive
payment of the appellate filing fee. [Record No. 27]
Habeas proceedings are not “civil actions” within the
meaning of 28 U.S.C. § 1915(a)(2) and (b). McGore v.
Wrigglesworth, 114 F.3d 601, 612 (6th Cir. 1997). A
district court, therefore, may exercise its discretion
in determining the amount of the filing fee and the
timing of its payment based upon what the petitioner
can reasonably afford to pay. Walker v. O’Brien, 216
F.3d 626, 638 n.5 (7th Cir. 2000)(en banc) (“A court

19a
has it within its discretion to insist that litigants
proceeding IFP in non-PLRA cases must nonetheless
pay a fee commensurate with their ability to do so.”).
The
financial
documents
accompanying
Samarripa’s motion indicate that he has sufficient
funds to pay a portion of the $505.00 appellate filing
fee. [Record No. 28] However, requiring Samarripa to
pay the whole filing fee would be unduly burdensome
in light of his limited financial resources. Samarripa,
therefore, must pay $50.00 in full satisfaction of the
appellate filing fee within 28 days. Olivares v.
Marshall, 59 F.3d 109, 111 (9th Cir. 1995)(citing
Clark v. Ocean Brand Tuna, 974 F.2d 48, 50 (6th Cir.
1992)). Accordingly, it is hereby
ORDERED as follows:
1. Petitioner David Samarripa’s motion to waive
payment of the appellate filing fee [Record No. 27] is
GRANTED, in part. Within 28 DAYS from this
date, Samarripa must pay $50.00 to the Clerk of the
Court in full satisfaction of the appellate filing fee.
2. The Clerk of the Court shall forward a copy of
this Order to the Clerk of the United States Court
Appeals for the Sixth Circuit.
This 11th day of October, 2017.
Signed by:
/s/ Danny C. Reeves DCR
United States District Judge

20a
APPENDIX C
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION at LONDON
_________
ARNULFO TORRES PEREZ,
Petitioner,
v.
J. RAY ORMOND, Warden,
Respondent.
_________
Civil Action No. 6:17-72-KKC
_________
Filed: November 3, 2017
_________
ORDER
_________
Petitioner Arnulfo Torres-Perez has filed a motion
to proceed in forma pauperis on appeal. [R. 26]
Torres-Perez’s statement of his inmate account [R.
27] shows recurring and consistent deposits into his
account totaling over $600.00 per month over the last
six months as well as a current balance of nearly
$1,000.00. This information establishes that he has
more than sufficient funds to pay the bulk of the
appellate filing fee.
Accordingly, IT IS ORDERED that:

21a
1. Torres-Perez’s motion to proceed in forma
pauperis on appeal [R. 26] is GRANTED IN PART.
He shall pay $400.00 to the Clerk of the Court
within twenty-eight days in full satisfaction of the
appellate filing fee.
2. The Clerk of the Court shall forward a copy of
this Order to the Clerk of the Court of Appeals for
the Sixth Circuit.
Entered November 3, 2017.
/s/ Karen K. Caldwell
Karen K. Caldwell, Chief Judge
United States District Court
Eastern District of Kentucky

22a
APPENDIX D
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION at LONDON
_________
STEPHON MASON,
Petitioner,
v.
J. RAY ORMOND, Warden,
Respondent.
_________
Civil Action No. 6:17-82-KKC
_________
Filed: October 19, 2017
_________
ORDER
_________
Petitioner Stephon Mason has filed a motion to
proceed in forma pauperis on appeal. [R. 22] Mason’s
statement of his inmate account [R. 23] shows
recurring and consistent deposits into his account
totaling nearly $1,000.00 per month over the last six
months, establishing that he has more than
sufficient funds to pay the bulk of the appellate filing
fee.
Accordingly, IT IS ORDERED that:
1. Mason’s motion to proceed in forma pauperis on
appeal [R. 23] is GRANTED IN PART. Mason shall

23a
pay $400.00 to the Clerk of the Court within
twenty-eight days in full satisfaction of the
appellate filing fee.
2. The Clerk of the Court shall forward a copy of
this Order to the Clerk of the Court of Appeals for
the Sixth Circuit.
Dated October 19, 2017.
/s/ Karen K. Caldwell
Karen K. Caldwell, Chief Judge
United States District Court
Eastern District of Kentucky

24a
APPENDIX E
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
AT LONDON
_________
Civil Action No. 17-81-DLB
_________
JOSE ADRIAN HERNANDEZ,
Petitioner,
v.
J. RAY ORMOND, Warden,
Respondent.
_________
Filed: November 16, 2017
_________
ORDER
_________
Petitioner Jose Adrian Hernandez has filed a
Notice of Appeal (Doc. # 19) and Motion to Proceed In
Forma Pauperis on Appeal (Doc. # 17). Habeas
proceedings are not “civil actions” within the
meaning of 28 U.S.C. § 1915(a)(2) and (b). See
McGore v. Wrigglesworth, 114 F.3d 601, 612 (6th Cir.
1997). A district court may therefore exercise its
discretion to determine the amount of the filing fee
and the timing of its payment based upon what the
petitioner can reasonably afford to pay. See Walker v.
O’Brien, 216 F.3d 626, 638 n.5 (7th Cir. 2000) (en

25a
banc) (“A court has it within its discretion to insist
that litigants proceeding IFP in non-PLRA cases
must nonetheless pay a fee commensurate with their
ability to do so.”).
The
financial
documents
accompanying
Hernandez’s Motion indicate that an average of
nearly $500.00 per month has been deposited into his
inmate account over the last six months, and his
current balance exceeds $1,000.00. (Doc. # 18).
Hernandez therefore has enough money to pay a
significant portion of the $505.00 appellate filing fee.
On the other hand, the Court has not found that his
appeal is frivolous, and making Hernandez pay the
whole filing fee would be unduly burdensome in light
of his limited financial resources.
Accordingly, it is ORDERED as follows:
(1) Petitioner Hernandez’s Motion to Proceed In
Forma Pauperis on appeal (Doc. # 17) is GRANTED
IN PART. Hernandez shall pay $350.00 to the Clerk
of the Court within twenty-eight (28) days in full
satisfaction of the appellate filing fee.
(2) The Clerk of the Court shall forward a copy of
this Order to the Clerk of the Court of Appeals for
the Sixth Circuit.
This 16th day of November, 2017.
Signed by:
/s/ David L. Bunning DB
United States District Judge

26a
APPENDIX F
_________
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF KENTUCKY
SOUTHERN DIVISION
LONDON
_________
TIMMIE D. COLE, SR.,
Petitioner,
v.
J. RAY ORMOND, Warden,
Respondent.
_________
Civil Action No. 6:17-cv-00150-GFVT
_________
Filed: December 13, 2017
_________
ORDER
_________
Petitioner Timmie D. Cole, Sr. has filed a Notice of
Appeal [R. 6] and a Motion to Proceed in Forma
Pauperis on Appeal [R. 9, 11]. Habeas proceedings
such as this case are not “civil actions” within the
meaning of 28 U.S.C. § 1915. See McGore v.
Wrigglesworth, 114 F.3d 601, 612 (6th Cir. 1997). A
district court, therefore, may exercise its discretion
in determining the amount of the filing fee and the
timing of its payment based upon what the petitioner
can reasonably afford to pay. See Walker v. O’Brien,
216 F.3d 626, 638 n. 5 (7th Cir. 2000) (en banc) (“A

27a
court has it within its discretion to insist that
litigants proceeding [in forma pauperis] . . . must
nonetheless pay a fee commensurate with their
ability to do so.”).
The financial documents accompanying Cole’s
motion indicate that an average of approximately
$149.00 per month has been deposited into his
inmate account over the last six months. [R. 10 at 9.]
Based upon these deposits, Cole has sufficient funds
to pay a portion of the $505.00 appellate filing fee in
this case. However, requiring Cole to pay the whole
filing fee may be unduly burdensome in light of his
limited financial resources. As a result, Cole must
pay a portion of the amount ($50.00) in satisfaction
of the appellate filing fee, and he must do so within
twenty-eight (28) days from the entry of this Order.
Accordingly, it is hereby ORDERED as follows:
(1) Cole’s Motion for Leave to Proceed in Forma
Pauperis [R. 9, 11] is GRANTED in part, within
twenty-eight (28) days from the entry of this Order,
Cole must pay $50.00 to the Clerk of the Court in full
satisfaction of the appellate filing fee; and
(2) The Clerk of the Court is DIRECTED to
forward a copy of this Order to the Clerk of the
United States Court of Appeals for the Sixth Circuit.
This 12th day of December, 2017.
/s/ Gregory F. Van Tatenhove
Gregory F. Van Tatenhove
United States District Judge

